                                        IR 09-002


       FEDERAL TRADE COMMISSION

          Office of Inspector General




   FINAL INSPECTION REPORT OF THE FTC
COTR OVERSIGHT OF SOLE SOURCE CONTRACTS




              September 29, 2009
                 Abbreviations Used in This Report



CFO       Chief Financial Of1icer
COTR      Contracting Officer Technical Representative
FPDS-NG   Federal Procurement Data System - Next Generation
FTC       Federal Trade Commission
GSA       General Services Administration
OIG       Of1ice of Inspector General
OPM       Of1ice of Personnel Management
IG        Inspector General
                                              UNITED STATES OF AMERICA
                                       FEDERAL TRADE COMMISSION
                                                 WASHINGTON, D,C. 20580



Of1ice of Inspector General




                                                                          September 29,2009

MEMORANDUM


TO:                    Steven A. Fisher
                       Chief Financial Officer

                       Edwin Franklin
                       Acting Assistant CFO for Acquisitions and Chief Acquisition Officer

FROM:                  JohnM.Seeba   ~~LL-
                       Inspector Genera~ ~

SUBJECT:               Final Inspection Report IR 09-002 - COTR Oversight of Sole Source Contracts


                       This report presents the results of our inspection of the Federal Trade
                       Commission's (FTC) Contracting Officer Technical Representative (COTR)
                       Oversight of Sole Source Contracts. This inspection was initiated as part of our
                       FY 2009 annual audit plan. The objective of this inspection was to detennine
                       whether COTRs are monitoring sole source contractors' activities to ensure that
                       they deliver the goods or services listed in the contract in a timely manner, meet
                       or exceed contract requirements, and control overall contract costs. We reviewed
                       a sample of 34 sole source contracts (11 %) valued at about $3.3 million (24%)
                       from a universe of 296 contracts valued at $13.6 million issued in fiscal years
                       2008 and 2009.

                        We found that overall COTRs were adequately monitoring contractor activities;
                        that the FTC received goods and services in a timely manner; contractors met or
                        exceeded contract requirements and staff was cognizant of cost controls. We did,
                        however, tind that training for COTRs as well as training for continuing education
                        requirements as mandated by OMB, did not meet the needs of the COTRs
                        assigned to oversee sole source contracts for expert witnesses and consultants.
                        Because the FTC hires outside contractors to teach COTR classes, we found that
                        the "standard" classes used to educate first-time COTRs provided too much
                        infonnation related to the procurement of regular goods and services and




      FTCIOIG-IR 09-002                                                                         Page I
         insufficient information related to the procurement of services provided by expert
         witnesses and consultants.

         We also found that the COTRs did not necessarily have a good understanding of
         the procurement process to effectively and efficiently marshal the proposed
         contract through the required contracting processes. Several COTRs we
         interviewed suggested that a primer about the contracting process would
         significantly help in their working with the acquisition branch to issue a contract.
         COTRs tasked with locating expert witnesses or consultants for their projects
         expressed concerns that they were not fully cognizant of all contracting
         requirements and wanted to ensure that they did not violate contracting
         procedures.

         In addition, COTRs expressed the need for further training on how to wTite a
         statement of work to better define contract requirements and expectations.
         COTRs in some cases, believed that the statement of work was wTitten too
         broadly on their contract to hold contractors accountable for substandard work. A
         better defined statement of work should help to address this issue. We also found
         that most COTRs did not have their duties as a COTR written into their
         performance standards. In general, except for a few COTRs we interviewed, most
         did not expend a great deal of time performing the duties of a COTR. The
         absence of these duties separately listed in an employee's performance plan
         creates the appearance that this function is not as important as other listed job
         duties. This leads to potential problems in that contracts awarded for possibly
         hundreds of thousands of dollars may not receive the attention necessary to
         achieve effective cost control or oversight. One of the reasons this inspection was
         initiated was because of a sole source contract issued in FY 2007 that was initially
         awarded at $200,000 and grew uncontrolled to over $800,000 without effective
         oversight. Including COTR duties in an employee's performance plan would
         ensure that COTR duties would receive the proper attention by assigned stalT.

         As a result of our findings, we contacted the Federal Acquisition Institute (FAI),
         an organization charged with fostering and promoting the development of a
         federal acquisition workforce. FAI facilitates and promotes career development
         in the acquisition field and seeks to ensure availability of exceptional training,
         promote professionalism, and improve acquisition workforce management. We
         discussed with FAI officials the issues facing the FTC and alternative solutions
         that would address these shortcomings. The FAI has resources available to work
         with the FTC either to develop or tailor current courses to specifically target the
         needs of COTRs that work mainly on sole source and consultant contracts.




FTC/OIG-IR 09-002                                                                 Page 2
                Recommendations

                1. We recommend that the Assistant CFO for Acquisition, in coordination with
                   the Bureau of Competition and the Bureau of Consumer Protection, work with
                   representatives of the Federal Acquisition Institute to:

                   a. develop an introductory training program to address the specific needs of
                      COTRs who oversee expert witness and consultant contracts: including
                      training on processing invoices, contract close-out, and developing
                      statements of work.

                   b. tailor a continuing education program to address FTC staff who are
                      assigned COTR duties for expert witness and consultant contracts.

                2. We recommend that the Assistant CFO for Acquisition develop a training or
                   instructional vehicle such as a brochure or include in the COTR initial training
                   class, an explanation of contracting process and the requirements to assist the
                   acquisition stafT in completing a contracting action.

                3. We recommend that the Assistant CFO for Acquisition work with the Human
                   Resources Management Office to define the duties of a COTR and include
                   them in the performance plans of all staff who are assigned COTR duties.


                Management generally agreed with the recommendations in the report. In areas
                where they partially concurred. management offered additional clarification or
                alternatives to our recommendations that will result in achieving the intent of the
                recommendations. Management's comments were fully responsive to our
                recommendations. The full texts of management's comments are shown in
                appendix B.

                We appreciate the courtesies and cooperation extended to us by members of your
                staff during the review. Should you have any questions please contact me at 202-
                326-2800.



cc:      Jon Leibowitz. Chairman
         Marian Bruno, Deputy Director. Bureau of Competition
         Daniel Kaufman, Chief of Staff. Bureau of Consumer Protection
         Diane Reinertson. Assistant CFO and Audit Liaison


Attachment



      FTC/OIG-IR 09-002                                                                 Page 3
Appendix A - Methodology




           Methodology

           We interviewed the Assistant CFO for Acquisition and the COTRs assigned to the
           contracts. We also interviewed senior level managers who were involved in the
           contracting process or were responsible for overseeing the procurement of expert
           witness and consultant contracts. In addition, we met with an outside
           organization, the Federal Acquisition Institute, to obtain further guidance and
           input on best practices for contracting in the Federal government environment.

           Contract data was obtained from the Assistant CFO for Acquisition who obtained
           the data from the General Services Administration (GSA) database known as the
           Federal Procurement Database - Next Generation (FPDS-NG). We did not
           specifically test the accuracy of the entire database, but instead traced the selected
           sample of contracts to their source documents contained in paper contract files.
           We found that the data contained in the paper files matched the sample data
           contained in spreadsheets provided to us from the FPDS-NG. We therefore
           believe the data was sufficiently reliable to satisfy our inspection objectives.

            Office of Management and Budget memorandums and FTC internal policies
            require COTRs to monitor contractor activities to ensure that the contractor
            delivers goods or services listed in the contract in a timely manner, meets or
            exceeds contract requirements, and controls overall contract costs.

           We conducted this inspection in accordance with Qualitv Standards for
           Inspections, January 2005 as adopted by the Council of Inspectors General for
           Integrity and Efficiency. The inspection was conducted during the period of
           February through August 2009. No prior audits have been conducted in this
           subject area for the FTC in the last five years by the FTC OIG or the Government
           Accountability Office.




    FTCIOIG-IR 09-002                                                               Page 4
 Appendix B - Management Comments




                                      UNITED STATES OF AMERICA
                                FEDERAL TRADE COMMISSION
                                       WASHINGTON, D.C. 20580



Financial Management Office




 To:            John Seeba, Inspector General

 From:          Steven A. Fisher, Chief Financial Officer (CFO)

 Subject:       Draft Report on COTR Oversight of Sole Source Contracts


 We reviewed the draft report of your inspection of the FTC's Contracting Oflicer's Technical
 Representative (COTR) Oversight of Sole Source Contracts (IR 09-002) and are pleased with
 your overall finding that: COTRs were adequately monitoring contractor activities; the FTC
 received goods and services in a timely manner; contractors met or exceeded contract
 requirements and that staff was cognizant of cost controls. While we generally concur with the
 recommendations contained in the report, our detailed comments regarding the findings and
 recommendations are provided below for your consideration in finalizing the report.

 Detailed Comments on Findings:

 COTR Training and Continuing Education

 The draft report states that training for COTRs as well as training tor continuing education
 requirements did not meet the needs of the COTRs assigned to oversee sole source contracts. In
 addition, the report suggests that the COTRs did not necessarily have a good understanding of
 the procurement process. We concur that there is room f()r tailoring courses to emphasize
 applicability within the FTC environment.




                                                                                           Page 5
Appendix B - Management Comments




While we agree that tailoring of the course offerings would better serve the FTC, it is important
to note that the core competency content of COTR training has been defined by the Office of
Management and Budget (OMB) Office of Federal Procurement Policy (OFPP) in a
memorandum issued in FY 2008. The OMB/OFPP training requirement specifies that of the 40
hours required, 22 hours must cover essential core competencies. The FTC's Office of General
Counsel has reviewed the guidance and opined that the Federal Acquisition Certification (FAC)-
COTR program is mandatory and applicable to FTC.

FTC Actions Taken

I note our significant previous and ongoing efforts in developing a training program for COTRs.
For example, prior to issuance of the OMB/OFPP policy, FTC already had a policy that only
employees who have completed adequate training and have the necessary experience and
judgment shall be appointed as COTRs. In addition, prospective COTRs must have completed
one hour of ethics training and a minimum of 16 hours of approved COTR training course(s)
prior to appointment. To help satisfy this requirement, the FTC had established an in-house
mandatory training course for all staff who are nominated for appointment as COTR.
Specifically, in FY 2006 and 2007 the Financial Management Office (FMO) partnered with the
FTC's Office of General Counsel and Office ofInspector General in developing the content for a
computer based training (CBT) course that includes a test which the staff member is required to
pass prior to appointment. This course is now used as refresher training.

In response to OMS's more recently issued FAC-COTR training requirements, the Assistant
CFO (ACFO) for Acquisition has taken the following actions:

       •   Updated and documented standard procedures implementing FAC-COTR
           requirements. The procedures provide several options (which include online training)
           for satisfying the 22 hour initial training requirement in core competency areas.
       •   Developed guidance outlining training options to satisfy the FAC-COTR continuing
           education requirements.
       •   Worked with ERMO to obtain on site training specifically designed to satisfy the
           core competencies requirements (See attached dates for on-site training)
       •   Obtained on-site training for wTiting proper Statements of Work that was provided by
           a contractor certified by thc Defense Acquisition University (DAU).

We agree that the FMO is responsible for developing a training program and for ensuring that
COTRs complete required training to meet OMB requirement and ensure FTC maintains a
qualified pool of COTRs.




                                                                                           Page 6
Appendix B - Management Comments




Statement of Work (SOW) Training

The report noted that some COTRs expressed the need for further training on how to write a
SOW and that in some cases the SOW that they had written were too broad to hold contractors
accountable for substandard work. Our past offering was a 3 day on-site training course on how
to write SOWs. Although the content did not exclusively focus on expert witness contracts, the
comprehensive course did cover expert witness and information technology contracts.

The CFO also partnered with senior managers across the agency to encourage their staff (who
had served as COTR) to complete the on-site training offered. For example, the Chief
Information Officer (CIO) made attendance mandatory for all ITMO COTRs. Staff within the
Acquisition branch will continue to work closely with COTRs in reviewing and offering
assistance with writing SOWs, including those for sole source contracts.

Senior Management Emphasis on the Importance of COTR duties

It is important to note that while FMO can continue to procure and offer relevant training, there
is a need for senior managers across the agency to help stress the importance of completing
mandatory COTR training (as defined by OMB and the ACFO for Acquisition) to staff. We
agree that one way to emphasize the importance of COTR duties is to incorporate them into the
appropriate staff members' performance plans. Such language should include provisions for
satisfying applicable training requirements.

Detailed Comments on Recommendations:

1.a. Partially Concur. During Fiscal Year 2010 the FMO will partner with the Bureau of
Competition and Bureau of Consumer Protection to provide training that not only satisfies the
mandatory requirements, but also better addresses FTC specific needs. We will review our
existing training program, and make necessary revisions to address the specific needs of COTRs
who oversee expert witness and consultant contracts. However, we will not limit our options for
solutions to only consulting with the Federal Acquisition Institute (FAI).

l.b. Concur. During Fiscal Year 2010 FMO will review our existing continuing education
program for opportunities to better address special needs of COTRs managing expert witness and
consultant contracts.

2. Concur. FMO will develop brochures or other instructional vehicles such as an FTC COTR
handbook. Although the initial COTR training program developed by the ACFO for Acquisition
includes provisions to ensure that initial courses include an overview and materials that explain
the overall contracting process, the ACFO for Acquisition will take appropriate action to verify
this aspect of training is responsive to staff needs.



                                                                                            Page 7
Appendix B - Management Comments




3. Partially Concur. The FMO has already defined COTR duties which are specified in the FTC
Administrative Manual and are further explained in COTR appointment letters. The FMO will
partner with HRMO, Bureaus and Offices to designate staff who will serve as COTRs and to
incorporate language describing responsibilities as COTR into performance plans of those staff
who are designated to perform such duties.

We noted that the methodology section ofthe inspection report did not include a review of the
course materials that were provided for either of the 3 day training courses that were offered to
staff. Rather than relying solely on feedback of COTRs, we believe that a review of the
materials would show the courses do cover explanations and an overview of the contracting
process as contained in recommendations 1 and 2.


FY 2009 Training dates for on site COTR Training

Course

Basic COTR                            October 21-23, 2008

Basic COTR                            August 4 - 6, 2009

Writing for Results (SOW)             November 18 - 19,2008

Writing for Results (SOW)             May 19 - 20, 2009




                                                                                             Page 8
Appendix B - Management Comments




                                                      UNITED STATES Of AMERICA
                                               FEDERAL TRADE COMMISSlON
                                                        WASHINGTON, D.C. 20580



           Of1](:cof tIl<:' Director
     !:hm:ilU of Con"untcr Pro!e~tion


                                                                                          September 22, 2009


             TO;                        John Seeba
                                        Inspector General

              FROM;                     David Vladeck
                                        Director
                                                             ~IJ!DIL
              SUBJECT:                  Response to Draft Report on COTR Oversight of Sole Source Contracts


                        Thank you for the opportunity to respond to the recommendations in the draft inspection
              report, dated September 8. 2009, regarding COTR Oversight of Sole Source Contracts. \Ve
              agree with your recommendation that the Assistant CFO for Acquisition. in coordination with
              the Bill'cuus. should \vark "vith representatives of the Federal Acquisition Institute to develop
              customized introductory and continuing training programs to address the specific needs of FTC
              COTRs who oversee expert witness and consultant contracts. We think it would be useful if
              hasic und customized training was accessible through the agency's e-Train learning system__ \Ve
              also concur with your recommendation that the Assistant CFO fur Acquisition develop a
              brochure for distrihution to stafftbat explains the contracting process and the requirements to
              assi:'\t the acquisition staff in completing a contracting action_ Further, we believe that, irihe
              training is customized to address our specific nccdR, the hi-annual COTR training requirement
              should be condensed, The current requirement for 40 hours of COTR training every two years is
              cumbersome for our staft: many of whom perfonn minimal COTR duties.


                       \Vith regard to your final recommendation to include CaTR duties in performance plnns,
              we believe that would be appropriate only for a limited number of employees whose COTR
              duties are a major component of their jobs. While these duties are important for the achievement
              of agency outcomes, for many employees, the COTR duties are infrequent or non-recurring, and,
              therefore. we believe that they should not be specifically listed in their performance pbns. To
              maintain the flexibility needed for changing \,vork requirements, we believe that any perfonnance
              issues related to COTR duties should be addressed v.-ithin the context of the more broadly-stated
              critical elements and performance standards related to communication, productivity, initiative,
              teamwork, and professionalism.


                       \Ve appreciate the opportunity to respond to the recommendations in the report, and hope
              the inf(xt11mion we have provided is helpful.




                                                                                                          Page 9
